V

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CHRISTOPHER TERRELL - PETITIONER

VS.
STATE OF ARKANSAS - RESPONDENT(S)
PROOF OF SERVICE
I, CHRISTOPHER TERRETT #87881. do swear or declare that on this date,
SEPTEMBER 20. 2021. as required by Supreme Court rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT
OF CERTIORARI on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above documents in
the ORCU Legal Mail system properly addressed to each of them and with first-class postage
prepaid.
The names and addresses of those served are as follows:
LESLIE RUTLEDGE. Attorney General of Arkansas

323 Center Street. Ste. 1100
Little Rock. AR. 72201-2610
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

September 20 . 2021
'(SIGNATURE)

CoSl

AFFIDAVIT

I declare under penalty of perjury; that I am incarcerated in Ouachita
River Correctional Unit; that the petition for writ of certiorari is being
deposited in the facility's legal mail system on September 20, 2021; that
first-class postage has been prepaid; that the petition for writ of certiorari is
being mailed to: United States Supreme Court, Office of the Clerk, one 1st
Street NE, Washington, DC, 20543.

T

Christopher Terrell #87881
P.O. Box 1630
Malvern, AR, 72104
Subscribed and sworn to before me a Notary Public on this _Z£^C7day of
___ _, 20 71 .

OFFICIAL SEAL
ARKANSAS

JASON GRAY

No.12384737
HOT SPRING COUNTY
My Commission Expires.10-14-2021

My commission expires:

NOTARY PUBLIC

io /I'j/toZA.

RECEIVED
SEP -1 2021

